GOVERNANCE:
Improved Policies, Practices, and Training Can Enhance Capital
Project Management




                                Audit Report OIG-A-2014-009 | July 15, 2014




                             DRAFT
This page intentionally left blank.
     NATIONAL RAILROAD
     PASSENGER CORPORATION


                                   REPORT HIGHLIGHTS
Why We Did This Review                     GOVERNANCE: Improved Policies, Practices, and Training Can Enhance
In FY 2012, Amtrak reported                                 Capital Project Management
spending about $921.8 million to                           Audit Report OIG-A-2014-009, July 15, 2014
improve infrastructure and
equipment. From FY 2009 through          What We Found
FY 2012, the four-year average for       Using a best practices comparative analysis methodology, we identified
capital expenditures was about           opportunities to improve capital project management activities in cost
$1.2 billion. The most recent five-      estimating, scheduling, and project oversight.
year financial plan shows that the
company’s capital project needs          The Engineering department did not consistently employ best practices in
exceed the level of funding              managing projects. Three of the five projects we reviewed encountered
anticipated.                             overruns and delays that forced the company to reprogram funds between
                                         programs and departments, and to delay or forgo other projects. For
Capital projects are used to             example, a cost estimate did not accurately forecast project costs; personnel
maintain the infrastructure and          did not ensure that schedules were developed to accomplish a project’s
equipment required to support            objectives; and the oversight of replacement projects was informal and
reliable and safe passenger rail         inconsistent.
service. In FY 2012, infrastructure
improvements included bridge             The Mechanical department’s project management practices for equipment
replacements, information                overhauls have similar weaknesses in cost estimating, scheduling, and
technology initiatives, and concrete     project oversight. Data on the hours expended on overhauls from FY 2009
tie replacements. Equipment              through FY 2012 shows that the department’s project management practices
improvements included overhauls          have not improved the efficiency of overhauls: an overhaul completed
of various types of locomotives and      during FY 2012 required up to 28 percent more average labor hours to
rail cars. Given the importance of       complete than an overhaul completed in FY 2009.
these projects, we assessed the
adequacy of capital management           Overall, the company’s management controls for project implementation
practices and processes.                 are weak. This has contributed to ineffective and inefficient project
Our work focused on the                  implementation in the Engineering and Mechanical departments and
Engineering and Mechanical               creates a similar risk in other departments. There is an absence of policies,
departments, which spent more            procedures, and training for project management. This condition, coupled
than 85 percent of capital project       with weaknesses we previously noted in justifying the need for capital
funds for FY 2012. Our audit             investments, creates a high-risk environment for the effective stewardship
objective was to determine the           over capital project resources. These weaknesses could ultimately affect the
adequacy of the policies,                company’s ability to meet its strategic goals—particularly the financial
procedures, and practices used by        excellence goal.
these two departments to manage
capital projects.                        Recommendations
                                         We recommend that the President and Chief Executive Officer take actions
                                         to improve the company’s capital project management practices including
For more information, contact            the development of company-wide policies and procedures for project
David R. Warren, Assistant Inspector     management and a training program in project management. The President
General, Audits, 202-906-4600.           and Chief Executive Officer agreed to the recommended actions.

For the full report, see
www.amtrakoig.gov/reading-room
                                       10 G Street NE, 3W-300, Washington D.C., 20002
                                          202-906-4600/Fraud Hotline 800-468-5469
This page intentionally left blank.
                                                                                                             2

                              Amtrak Office of Inspector General
              Governance: Improved Policies, Practices, and Training Can Enhance
                                Capital Project Management
                                Audit Report OIG-A-2014-009

Our audit objective was to determine the adequacy of the policies, procedures, and
practices used by the Engineering and Mechanical departments to manage capital
projects. For additional details on our scope and methodology, see Appendix A.

OPPORTUNITIES TO IMPROVE POLICIES, PROCEDURES,
PRACTICES, AND TRAINING FOR PROJECT MANAGEMENT
ACTIVITIES

Our work focused primarily on the Engineering and Mechanical departments: these
two departments accounted for more than 85 percent of the reported $921.8 million
expended in FY 2012.4 We compared the company’s policies, procedures, and practices
with best practices and identified a number of opportunities for improvement.
According to best practices, the success of a project largely depends on sound practices
in three key areas: cost estimating, scheduling, and project oversight. Project oversight
includes efforts to track, review, and regulate project progress and performance. The
opportunities for improvement we identified are summarized in Figure 1.


                         Figure 1. Opportunities for Improvement
                                                 Engineering
                   Best Practices                                          Observed Practices
Organizations similar to Amtrak that we used as a         The Engineering department reprogrammed about
benchmark reprogram on average about 3% of                15% of its annual budget for federally funded
their capital budgets. When developing capital            projects. The department budgets and manages at
budgets, these organizations grouped similar              the project level. In FY 2014, Amtrak proposed to
projects together as a program.                           budget and manage at the program level.
Cost estimates should be continually updated with         The cost estimate for a bridge project did not
actual data as they become available and should           accurately or reliably forecast project costs, and it
be revised to reflect changes.                            was not updated despite several cost increases.
                                                          Construction costs were about 46% percent higher
                                                          than estimated, and $7 million was reprogrammed
                                                          from other capital projects.
Successful projects have a reliable schedule that         Although the contract statement of work for a
defines when work will occur, how long it will take,      project to modernize the systems that monitor train
and how each activity relates to the others.              activity required three schedules to manage project
                                                          progress, none were developed.
Project managers should track, review, and                The project oversight of replacement programs
regulate progress and performance; identify areas         performed by company personnel was informal and
in which changes to the plan are required; and            inconsistent. Oversight efforts focused on the
initiate changes.                                         expenditure of funds and not on progress and
                                                          performance.



4   FY 2013 audited financial records were not available at the time of this report.
                                                                                                       3

                           Amtrak Office of Inspector General
           Governance: Improved Policies, Practices, and Training Can Enhance
                             Capital Project Management
                             Audit Report OIG-A-2014-009

                                             Mechanical
                    Best Practices                                   Observed Practices
Recurring production processes should grow more      The data on overhauls performed by department
efficient over time.                                 employees showed that the process became less
                                                     efficient from FY 2009 through FY 2012:
                                                     completing an overhaul required an average of
                                                     28% more labor hours, in FY 2012. There were
                                                     also large variations in the hours needed to perform
                                                     overhauls.
Cost estimates should be developed using             Cost estimates for overhauls did not adequately
established methods and reliable data.               forecast the cost and hours expended. To cover
                                                     anticipated out-of-scope work, officials build
                                                     additional hours into their cost estimates.
Successful projects have a reliable schedule that    Overhaul project schedules did not define when
defines when work will occur, how long it will take, tasks occurred or the time required. The
and how each activity relates to the others.         department’s methods to record activities did not
                                                     provide the data necessary to determine the
                                                     elements of the schedule that need adjustment.
Project oversight should include the processes       A formal, defined project oversight process was not
required to track, review, and regulate the progress developed to assess the progress of active
and performance of the project.                      overhaul projects or measure the success of
                                                     overhauls. Also, prior to FY 2013, foremen did not
                                                     consistently monitor the hours and costs charged to
                                                     an overhaul.
Source: The best practices are derived from our review of the Government Accountability Office’s (GAO)
Cost Estimating and Assessment Guide and Schedule Assessment Guide, A Guide to the Project
Management Body of Knowledge, and the Defense Manufacturing Management Guide for Program
           5
Managers. The reprogramming benchmark and observed practices are a result of OIG analysis.


Opportunities exist to improve project management policies and
procedures, training, and accountability

The management control weaknesses summarized in Figure 1 above and discussed in
the latter sections of this report limited the effectiveness and efficiency of capital project
management. Three factors contributed to the management control weaknesses
discussed in this report: policies and procedures to govern project management were
inadequate, training for project managers and foremen was informal, and accountability
for project results was lacking.




5GAO, Cost Estimating and Assessment Guide, GAO-09-3SP, March 2009; GAO Schedule Assessment Guide,
GAO-12-120G, May 2012; Project Management Institute, A Guide to the Project Management Body of
Knowledge (PMBOK Guide), Fourth Edition, 2008; Defense Acquisition University, Defense Manufacturing
Management Guide for Program Managers, October 16, 2012.
                                                                                          4

                             Amtrak Office of Inspector General
             Governance: Improved Policies, Practices, and Training Can Enhance
                               Capital Project Management
                               Audit Report OIG-A-2014-009



Policies and procedures for project management need to be strengthened

The company does not have overall company-wide policies and procedures to govern
project management. Because there is no company-wide project management policy,
each department decides how projects will be managed. Currently, each project
manager or foreman has a unique method to conduct oversight of projects and
overhauls. Some departments have developed policies and procedures related to project
management. Policies and procedures are a key element of a sound internal control
environment to ensure that capital projects of all types are completed efficiently and
effectively.

Similarly, our capital planning report identified a lack of company-wide guidance on
how to develop sound project proposals.6 Consequently, the management controls for
capital projects are limited from project inception through completion. The company is
in the process of revising its capital project selection process. The Assistant Vice
President of Financial Planning is developing a plan to adopt sound business practices
in reviewing and ranking projects, as well as independently reviewing and validating
proposals.

In the absence of overall guidance, the Engineering department has developed internal
project control procedures for capital construction projects valued at more than
$3 million and involving third-party contractors. However, project managers are not
formally required to use these procedures. Although these procedures cover a number
of areas—such as project execution and closeout—they do not address cost estimating.
In addition, the procedures need to be improved to more effectively address project
initiation and planning. The internal project control procedures were applicable to one
of the five Engineering department projects we reviewed—the bridge replacement.

Although our work focused on the Engineering and Mechanical departments, other
departments may have similar project management weaknesses to those stated in
Figure 1, particularly because there are no company-wide policies and procedures for
project management or training programs for project managers.




6   OIG-E-2013-020, September 27, 2013.
                                                                                                    5

                           Amtrak Office of Inspector General
           Governance: Improved Policies, Practices, and Training Can Enhance
                             Capital Project Management
                             Audit Report OIG-A-2014-009



Training for project managers and foremen can be improved

There is no company-wide training program in project management; therefore, the
departments did not provide formal project management training to project managers
and foremen. A senior official of the Engineering department stated that most of its
project managers were not trained; they rely on what they have learned on the railroad
over the years and their judgment and experience. A back shop superintendent in the
Mechanical department explained that most foremen have never received project
management training and would likely benefit from such training. We noted that the
Engineering department started an initiative to develop a training program for project
managers. Currently, the department is focusing on obtaining external resources to
improve project management at the most at-risk projects.

Prior OIG reports noted that outdated processes in human capital management,
training, and employee development hinder the company’s ability to perform
effectively.7 The company agreed with our recommendations and is in the process of
taking a variety of corrective actions.

Enhanced accountability for controlling costs and schedules needed

The Engineering and Mechanical departments do not have a formal process to hold
project managers and foremen accountable for completing their projects within budget
and schedule. The two departments shared a common approach to annual project
assessments. The goal of both departments, according to senior officials, is to expend
available capital funding, but at the end of the year they do not assess whether the
projects were completed within budget and on schedule. The departments do not
review individual projects for efficiency because they view the projects and overhauls
as an overall annual effort—not project by project.

In a prior report, we recommended that the Finance department build the capability to
conduct post-completion reviews of projects as required by company policy.8 This new

7 Amtrak OIG, Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions To Improve
Human Capital Management, Training, and Employee Development Practices, OIG-E-11-04, July 8, 2011;
Amtrak OIG, Training and Employee Development, E-09-06, October 26, 2009; Amtrak OIG, Human Capital
Management, E-09-03, May 15, 2009.
8 OIG-E-2013-020.
                                                                                          6

                          Amtrak Office of Inspector General
          Governance: Improved Policies, Practices, and Training Can Enhance
                            Capital Project Management
                            Audit Report OIG-A-2014-009

company effort could provide useful data to the two departments, but both
departments will need to use the data effectively to promote accountability.

Capital project expenditures

From FY 2009 through FY 2012, the four-year average for capital expenditures was
about $1.2 billion, as reported by the company. In FY 2012, the company reported
expending about $921.8 million for infrastructure and equipment improvements that
were critical to operations. These funds came from various sources:

   $669.2 million from an annual Federal Railroad Administration grant
   $121.6 million from state and local governments and other sources
   $83.8 million from the Railroad Rehabilitation and Improvement Financing
    Program
   $25.7 million from a Department of Homeland Security grant
   $17.2 million from Amtrak revenues
   $4.3 million from an American Recovery and Reinvestment Act of 2009 grant

Infrastructure improvements included bridge replacements, information technology
initiatives, and yearly replacement projects along the Northeast Corridor. Equipment
improvements included overhauls of various types of locomotives and rail cars. For
more information on FY 2012 capital expenditures, see Appendix B.

Opportunities to improve Engineering department capital project
management

Overall, capital project cost and schedule data shows cost overruns and significant
reprogramming, an inaccurate and unreliable cost estimate, schedule delays, and
inconsistent management of replacement projects. Three of the five projects we
judgmentally selected for review experienced overruns and delays that caused the
company to reprogram funds and delay or forgo other projects. The five projects were
for interlocking replacement, concrete tie replacement, surfacing replacement, an
information technology upgrade, and bridge replacement; they ranged in value from
$4.3 million to $149.7 million.

The department did not consistently use best practices in managing these projects. For
example, we identified a cost estimate that did not accurately or reliably forecast project
                                                                                                           7

                              Amtrak Office of Inspector General
              Governance: Improved Policies, Practices, and Training Can Enhance
                                Capital Project Management
                                Audit Report OIG-A-2014-009

costs, project schedules that were not developed, and project oversight that was
inconsistently performed.

Trends show cost overruns and significant reprogramming of funds

Of the department’s 404 projects, funded from a Federal Railroad Administration grant,
172 were over budget (43 percent) in FY 2012. These overages led to reprogramming
funds from other projects. In FY 2012, the department reprogrammed about
$56.4 million (15 percent) of its $365 million annual grant budget. When considering all
funding sources, the department reprogrammed $76.3 million and received an
additional $32.4 million from other departments to cover its activities.

Organizations similar to Amtrak that we used as a benchmark reprogram an average of
about 3 percent of their capital budgets. When developing capital budgets, these
organizations grouped similar projects together as one line item in the budget and
allowed the individual departments to manage each line item as a program. The
Engineering department budgets and manages at the project level. In FY 2014, Amtrak
proposed to budget and manage at the program level.

The cost estimate was not updated for a bridge replacement project

We reviewed a project to replace a 100-year-old bridge crossing the Niantic River in
Connecticut. It was awarded in January 2010 and completed in May 2013. The purpose
of the project was to improve speed and reliability along the Northeast Corridor.

The cost estimate for the project did not accurately or reliably forecast project costs. In
November 2005, the Engineering department’s original cost estimate was $67.7 million.9
In June 2009, the department’s final update of the cost estimate for construction,
Engineering department labor, and construction management was $96.8 million;
however, as of June 2013, the final project cost was $149.8 million—$53 million
(54.8 percent) more than the June 2009 cost estimate. Despite several increases
throughout the project, the Engineering department did not update its cost estimate
after June 2009.

According to best practices, cost estimates should be continually updated with actual
data as it becomes available. Such updates help project managers to mitigate cost
overruns and schedule changes.

9   The Final Design Replacement of the Niantic River Bridge, Engineers Cost Estimate, November 4, 2005.
                                                                                             8

                          Amtrak Office of Inspector General
          Governance: Improved Policies, Practices, and Training Can Enhance
                            Capital Project Management
                            Audit Report OIG-A-2014-009

The department’s cost estimate for the bridge replacement contained three main
components: construction, Engineering department labor, and construction
management services. During project execution, costs increased in each of these areas,
as shown in Figure 2.

                          Figure 2. Niantic Bridge Replacement:
                        Reported Project Costs, Estimate vs. Actual
                                          (dollars in millions)
                                Estimate          Actual          Overage    Percent Over
                              (June 2009)      (June 2013)
         Construction             $81.5             $118.6           $37.1          45.5%

         Engineering               10.3                   22.0        11.7           113.6
         Department Labor
         Construction               5.0                     9.2        4.2            84.0
         Management
         Services
         Totals                   $96.8                $149.8        $53.0          54.8%

         Source: OIG analysis of Amtrak data

      Construction costs. The department estimated that the construction portion of
       the project would cost $81.5 million. However, when the contract was awarded
       in January 2010, it was valued at $104.7 million—$23.2 million (28.5 percent)
       more than the cost estimate. The department did not update the cost estimate in
       the project file to reflect the actual contract award amount.

       Also, the contract was modified 26 times, increasing the contract value by
       $13.9 million (13.3 percent), but the department did not update its estimate in the
       project file to reflect these increases. Overall, construction costs for the bridge
       replacement increased from the June 2009 estimate of $81.5 million to
       $118.6 million (up 45.5 percent), as of June 2013.

      Labor costs. The Engineering department estimated that its labor costs for this
       project would be $10.3 million; however, these costs increased by $11.7 million
       (113.6 percent). The department did not update these cost increases in the project
       file. Most of the $11.7 million increase occurred in April 2013 for track work
       required to complete the project, according to the project manager. When
       compiling his estimate for the FY 2013 budget, the project manager had
       significantly underestimated the amount of track work necessary to complete the
       project.
                                                                                                            9

                            Amtrak Office of Inspector General
            Governance: Improved Policies, Practices, and Training Can Enhance
                              Capital Project Management
                              Audit Report OIG-A-2014-009

         To fund this increase, the department had to reprogram $7.1 million from other
         Engineering department projects. The $7.1 million reprogramming was a portion
         of a larger reprogramming request for 27 projects totaling $33.5 million to cover
         expanded project scopes. Funding for the reprogramming was reportedly made
         available from 87 other projects in the department that were delayed due to
         scheduling changes.

        Construction management services. In October 2007, the Engineering
         department entered into a contract for construction management services valued
         at about $5 million. The department expected construction to start in
         October 2008 and be completed in October 2011, but funding constraints and
         other issues delayed the start of construction for 16 months (until February 2010).
         During these 16 months, the department contracted for construction
         management services to support the department and the design team, and for
         assistance with design changes and permitting. Because of the delay in starting
         the project and retaining the construction management services, the cost for these
         services nearly doubled to $9.2 million (an increase of 84 percent).10 The
         department did not update these increases in the project file.

         In our September 2013 report on Amtrak’s capital planning process, we
         identified a similar overrun in a project with an unreliable cost estimate.11 We
         reported that a Marketing department project cost estimate was not sufficiently
         documented and not comprehensive. This project was $35 million over budget.

        Funding sources to cover cost increases. The 16-month delay in the construction
         of the bridge also impacted the planned source of some of the Engineering
         department’s funding for the project. In 2009, the department budgeted
         $100 million in American Recovery and Reinvestment Act of 2009 funding for the
         project; however, in June 2010, this amount was reduced to $60 million because
         the department decided it would not be able to expend the funds by the act’s
         mandated deadline. The company could have received a waiver to expend the
         funds; we previously reported that the company received waivers that allowed
         the completion of 86 projects after the deadline had passed.12 To complete the


10 This cost is correct as of June 30, 2013, and does not reflect any increases after that time.
11 OIG-E-2013-020.
12 Amtrak OIG, American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but Less than

Planned, 908-2010, June 22, 2011.
                                                                                       10

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009

      bridge project, the department changed the source of funding to its annual
      capital grant funds—thereby reducing the amount of funds available for other
      capital projects. In FY 2012, the company had to forgo its planned $40 million
      track-laying machine program because of insufficient funding.

      The American Recovery and Reinvestment Act of 2009 and Federal Railroad
      Administration grant agreements required the department to provide monthly
      capital project status reports to the Federal Railroad Administration. However,
      these reports did not compare project costs to the department’s cost estimate. The
      reports provide information only on then-current fiscal year activities.

Schedules were not developed for the electrification and traffic project

The Engineering department did not ensure that schedules were developed for the
Centralized Electrification and Traffic Control project, which was intended to
modernize and replace aging equipment with server-based systems that monitor and
control train activity along the Northeast Corridor. Centralized Electrification and
Traffic Control facility locations did not have back-up capability; server-based systems
will allow for easy back-up in a disaster.

Although the February 2008 contract required the development of specific project
schedules, the Engineering department did not require the contractor to develop them
and did not hold the contractor accountable for not doing so. Best practices show that
successful projects have reliable schedules that define when work will occur, how long
it will take, and how each activity relates to the others. The lack of required project
schedules has limited the ability of the project manager to ensure a successful project
outcome.

Six months after the contract was signed, the contractor approached the Engineering
department to discuss concerns over its ability to meet the project’s milestones.
However, the department instructed the contractor to continue work and did not
require it to develop the schedules to help ensure that the project would meet the
required deadlines. In March 2011, the department took over scheduling duties from
the contractor due to the severity of the project delays, according to the project
manager. Also, the project manager and contracting officer have been meeting with the
contractor regularly to discuss performance and project progress.
                                                                                                         11

                            Amtrak Office of Inspector General
            Governance: Improved Policies, Practices, and Training Can Enhance
                              Capital Project Management
                              Audit Report OIG-A-2014-009

In March 2013, the department developed a project schedule that shows the baseline
finish dates compared to the current finish dates for project tasks, but this schedule falls
short of the requirements provided in the statement of work. The current schedule does
not establish the number of activities required, the work breakdown structure, and the
logical sequence of events. The lack of these items prevented the project manager from
measuring project progress against required milestones. As of April 3, 2014, the project
was almost three years behind schedule.

Further, our capital project planning report also reviewed this project to determine
whether sound business practices were used in developing the project proposal.13 Our
report stated that the department developed cost and schedule estimates during the
planning stage, but the report did not evaluate the implementation of these estimates.
This report shows that the schedule implementation did not follow best practices.

Inconsistent management of replacement projects

The Engineering department’s oversight of infrastructure replacement projects was
informal and inconsistent. The department contracted for the bridge replacement and
electrification and traffic projects, but used Engineering department labor to perform
the infrastructure replacement projects. The three projects we reviewed are part of the
company’s yearly replacement programs along the Northeast Corridor:

        replacing concrete ties along the right of way14
        replacing an interlocking in Maryland
        replacing surface stone to support rail in the Mid-Atlantic and New England

Best practices state that project oversight should include the processes required to track,
review, and regulate the progress and performance of the project. We noted that project
managers had very different approaches to overseeing these projects. For example, two
project managers communicated regularly with personnel in the field regarding their
projects. These project managers were familiar with the status of their projects—costs,
schedule, and progress.



13OIG-E-2013-020.
14A previous OIG report reviewed this program and found that Amtrak had taken positive steps to
proactively minimize the risk of manufacturing defects in concrete ties. Amtrak OIG, American Recovery
and Reinvestment Act: Amtrak Has Taken Positive Steps to Safeguard Funds Used for Concrete Tie Replacement
Program, OIG‐E‐2013‐017, September 19, 2013.
                                                                                                  12

                           Amtrak Office of Inspector General
           Governance: Improved Policies, Practices, and Training Can Enhance
                             Capital Project Management
                             Audit Report OIG-A-2014-009

Another project manager was typically not scheduled to work while work was being
performed.15 This project manager provided oversight by reviewing reports in a
corporate system, Web Work Element Explorer. He stated that his responsibilities are to
manage the project funding, establish work element numbers, update project
information, review invoices, and approve material purchases. He also stated that the
actual labor force is managed by the individual groups responsible for the interlocking
replacement, such as communication and signals and track. This interlocking project
started in July 2009 and was scheduled to be completed in September 2012, but funding
constraints caused delays and staff furloughs. The current estimated completion date is
September 2014—a two-year delay. Also, over the past two years, project costs have
exceeded budget allotments. In FY 2012, the department allotted $300,000 for this
project, but FY 2012 expenditures were $357,250. In FY 2013, the department allotted
$2,300,000 for this project, but expenditures were $2,948,790. For this current fiscal year,
the department allotted $500,000 and has spent $899,303 as of January 2014. According
to a department project status report, $282,000 of the cost increase was to install an
unplanned access road.

Opportunities to improve Mechanical department capital project
management and increase efficiency of overhauls

Our review of five projects, valued at a total of $48.7 million, raises questions about
whether the Mechanical department’s project management practices for equipment
overhauls has helped to improve the efficiency of overhauls. Data on the reported
number of hours expended on overhauls from FY 2009 through FY 2012 shows that the
department has become less efficient: an overhaul required up to 28 percent more
average labor hours to complete in FY 2012 than in FY 2009.16 We recognize that other
factors can impact the amount of hours expended on overhauls, such as changes in the
scope of work and aging equipment. However, we noted that cost estimates did not
reflect project variations, overhaul schedules were not sufficiently detailed to measure
progress, and project oversight was not geared toward ensuring the efficient completion
of the overhaul projects. Best practices state that the success of a project largely depends
on sound practices in cost estimating, scheduling, and project oversight.

15 Interlockings are typically performed from Friday night through Monday morning. The project
manager is on a Monday-to-Friday schedule that does not overlap.
16 The calculation of average labor hours included those hours the company reportedly incurred

completing 14 different types of overhauls. We included only those types of overhauls that were
performed in all four years FY 2009–FY 2012.
                                                                                           13

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009

The Mechanical department overhauls locomotives, passenger cars, and food service
cars. An overhaul typically consists of the complete rebuilding of heating, ventilation,
and air conditioning units; brake valves; door operators; and system-critical
components. It also includes heavy cleaning of carpeted surfaces and replacing seat
cushions. Department employees complete the overhauls in the company’s three back
shops in Beech Grove, Indiana; Bear, Delaware; and Wilmington, Delaware.

Overhaul data shows costs have increased

Mechanical department data on equipment overhauls performed from FY 2009 through
FY 2012 shows that the cost of performing the same type of overhaul on the same model
of equipment has increased year after year. Best practices state that recurring
production processes should grow more efficient over time. The department’s data on
equipment overhauls shows that the process has become less efficient. Completing an
overhaul in FY 2012 required an average of 28 percent more labor hours than it did in
FY 2009. Some of the increases in the hours necessary to complete these overhauls are
likely contributable to changes in the overhaul scopes of works and aging equipment.
However, the department considers these increases and anticipates out-of-scope work
when developing its estimates for the coming year.

For example, the number of hours required to complete the same type of overhaul on
237 of the same model of equipment (Amfleet 1 Coach) had increased by 37 percent
from FY 2009 through FY 2012. The increases in actual hours expended on this type of
overhaul for this model of equipment outpaced the increases to the hours budgeted. As
shown in Figure 3, the hours expended to complete each Amfleet 1 Coach Level 1
overhaul fluctuated significantly during the period reviewed. During this time, the
average labor hours to complete these overhauls increased by 37 percent; the labor
hours expended on these overhauls varied from 34 percent less than to 95 percent more
than the estimate. All 44 overhauls completed in FY 2012 required more than the
estimated hours to complete.
                                                                                                             14

                                               Amtrak Office of Inspector General
                               Governance: Improved Policies, Practices, and Training Can Enhance
                                                 Capital Project Management
                                                 Audit Report OIG-A-2014-009

                                 Figure 3. Reported Labor Hours for Amfleet 1 Coach Overhauls
                                                   FY 2009 Through FY 2012
  Estimated and Actual Labor




                                                                                                    Actual
            Hours




                                                                                                    Hours
                                                                                                    Estimated
                                                                                                    Hours




                                              Amfleet 1 Coach Level 1 Overhauls

 Source: OIG analysis of Amtrak data from its Work Management System

A senior official stated that their goal was to stay on budget for their programs and their
department as a whole. He stated that the focus is not on individual project
performance, but on completing the number of overhauls scheduled for the year.
Overhaul data, for the years we reviewed, showed that the back shops were generally
within five percent of annual budget estimates and that scheduled overhauls were
typically completed.

Cost estimates did not reflect project variations

The cost estimates the department developed did not adequately forecast the costs or
hours expended to complete overhauls. The department develops annual cost estimates
for each type of overhaul planned. To develop these cost estimates, personnel used their
institutional knowledge and the prior-year data on the costs and hours incurred.
Personnel also considered increases to the scope of work for the coming fiscal year, the
estimated capital funding that will be available, and any anticipated out-of-scope work.

To cover anticipated out-of-scope work, two superintendents and one assistant
superintendent told us that they built additional hours into their cost estimates.
However, these cost estimates were not an adequate predictor of the company’s costs
and hours to perform overhauls. Best practices state that cost estimates should use
established methods and reliable data.
                                                                                                       15

                              Amtrak Office of Inspector General
              Governance: Improved Policies, Practices, and Training Can Enhance
                                Capital Project Management
                                Audit Report OIG-A-2014-009

The department’s data on equipment overhauls showed great variability when
compared to the department’s estimates. For example, in FY 2012, the department
estimated that it would take 1,950 hours to overhaul a Superliner 2 Transition Sleeper
Dormitory Level 2. However, of the 10 overhauls completed, 2 were under budget, and
8 were over budget—ranging in total hours from 1,846 hours up to 2,746 hours. Because
of these variations, we question the usefulness of historical data in developing overhaul
cost estimates.

Schedules were not sufficiently detailed

Mechanical department project schedules did not define when and how long tasks will
occur, which limited the ability of project managers to measure progress or promote
accountability. When performing overhauls, the three back shops use Maintenance
Analysis Program books to track the progress of each overhaul;17 however, these books
do not identify the amount of time it takes to complete specific tasks. Best practices
show that an attribute of successful projects is a reliable schedule that defines when and
how long work will occur and how each activity relates to the others.

The department’s use of the Maintenance Analysis Program books does not provide the
data necessary for an analysis of the schedule to identify elements of the schedule that
need adjustment. Moreover, the department process does not require this type of
analysis. Without a reliable schedule that spells out the expected and actual time
necessary to complete overhaul tasks and projects, the Mechanical department does not
have the data needed to evaluate the efficiency of operations.

Project oversight was informal and inconsistent

The Mechanical department does not have a formal, defined oversight process to assess
the progress of active overhaul projects or to measure their success. Best practices state
that project oversight consists of the processes required to track, review, and regulate
the progress and performance of the project; to identify any areas in which changes to
the plan are required; and to initiate the corresponding changes. We noted that prior to
FY 2013, foremen did not consistently monitor the hours and costs incurred during an
overhaul. During and after overhaul projects, foremen review the books to see which
tasks were completed on a specific piece of equipment. However, they had no basis or


17   The Maintenance Analysis Program book includes all of the tasks needed to complete an overhaul.
                                                                                               16

                          Amtrak Office of Inspector General
          Governance: Improved Policies, Practices, and Training Can Enhance
                            Capital Project Management
                            Audit Report OIG-A-2014-009

process to assess whether the work was performed efficiently or whether outside
factors affected project performance—such as parts availability or quality.

Department personnel enter the costs and hours expended during an overhaul into the
company’s Work Management System,18 but they do not use the system to analyze
trends or identify areas for improvement. The limited information available on the
Maintenance Analysis Program book and the limited use of the Work Management
System prevents management from effectively assessing the performance of individual
equipment overhauls. At the back shop in Bear, Delaware, when foremen were aware of
the hours expended to conduct an overhaul, they participated in informal,
undocumented discussions with their crews to emphasize the importance of staying
within established budgets. Although such discussions could potentially improve the
performance on successive overhauls, the overhaul data from FY 2009 through FY 2012
demonstrates that improvements are not being realized.

Strategic Planning—the Beech Grove Pilot Program

The department is developing a strategic plan to safely create and deliver industry-
leading, competitive mechanical services for rolling stock assets in North America for
their internal and external business partners and customers. The back shop at Beech
Grove is the pilot program. The goal is to position Beech Grove as a best-in-class rail
equipment maintenance facility serving Amtrak and its business partners with a
commitment to on-time delivery and continuously improving safety and quality
craftsmanship at a competitive price. The department established a Beech Grove
Improvement Committee to implement the strategic plan. This committee recently
identified eight strategic initiatives designed to ensure execution of the plan. This
committee developed action plans for four strategic initiatives and is in the process of
executing the action plans.




 The Work Management System is the Mechanical department system for payroll, work scheduling, and
18

maintenance recording.
                                                                                        17

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009


CONCLUSION AND RECOMMENDATIONS

Overall, the company’s management controls for project implementation are weak. This
has contributed to ineffective and inefficient project implementation in the Engineering
and Mechanical departments and creates a similar risk in other departments. There is an
absence of policies, procedures, and training for project management. This condition,
coupled with weaknesses we previously noted in justifying the need for capital
investments, creates a high-risk environment for the effective stewardship over capital
project resources. These weaknesses could ultimately affect the company’s ability to
meet its strategic goals—particularly the financial excellence goal.

This report identifies various opportunities to improve the company’s capital project
management practices. We recommend that the President and Chief Executive Officer
take the following actions:

   1. Designate a senior executive to develop company-wide policies and procedures
      for project management that are consistent with the best practices discussed in
      this report.

   2. When the company-wide policies are developed, require each department to
      develop project management policies that are consistent with the overall policy,
      and to tailor the policies to their specific activities.

   3. Direct the Chief Human Capital Officer to lead an effort with the appropriate
      departmental executives to develop a project management training program.
                                                                                   18

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009


MANAGEMENT COMMENTS AND OIG ANALYSIS

In his response to the draft report, the President and Chief Executive Officer agreed
with our recommendations. He stated that the company is in the process of developing
a corporate-wide Project Management Office. In addition, he has directed the Chief
Financial Officer and the Vice President of Operations, working in concert with the
Chief Human Capital Officer, to develop an action plan showing specific goals,
objectives, and milestones addressing our findings by September 30, 2014. Once
reviewed, Amtrak management will provide us the action plan. We will monitor the
plan’s development and review the plan as part of our regular recommendation follow-
up The actions taken and promised meet the intent of our recommendations. process.

For the complete response, see Appendix C.
                                                                                        19

                               Amtrak Office of Inspector General
               Governance: Improved Policies, Practices, and Training Can Enhance
                                 Capital Project Management
                                 Audit Report OIG-A-2014-009

                                                 Appendix A


                                  SCOPE AND METHODOLOGY

The scope of our work focused on project management practices and procedures in the
Engineering and Mechanical departments. We reviewed the extent to which company-
wide project management policies exist, and we analyzed reported capital project
spending for FY 2012.19 Our audit objective was to determine the adequacy of the
policies, procedures, and practices used by the Engineering and Mechanical
departments to manage capital projects. In June 2012, staff from our Washington office
initiated work to identify criteria and to research company policies and procedures.
Staff from our Philadelphia office conducted fieldwork from September 2012 through
April 2014.

Our overall methodology was to conduct a comparative analysis between the best
practices of private- and public-sector organizations and the two Amtrak departments.
These two departments accounted for about 85 percent of the company’s FY 2012
capital project spending.

To identify best practices and provide a framework for our review, we researched
GAO’s Cost Estimating and Assessment Guide and Schedule Assessment Guide, which
provide standards and guidelines for project management in estimating and
scheduling.20 To identify standards and guidelines for project management and
oversight, we researched a publication used by private organizations—Project
Management Institute’s, A Guide to Project Management Body of Knowledge (PMBOK
Guide), Fourth Edition (2008). These publications are recognized as generally accepted
sources of best practices in project management. To identify standards and guidelines
for production processes, we researched the Defense Acquisition University’s, Defense
Manufacturing Management Guide for Program Managers, October 16, 2012. For additional
information and standards, we reviewed Amtrak’s Policy No. 8.37.0, Capital
Programming, December 4, 2009, which describes the requirements and limitations for
capital programming, reprogramming, and closing out projects. This policy is currently
being revised. To determine the average percentage of comparative organizational
annual capital budget reprogramming, we used information contained in a prior OIG


19   FY 2013 audited financial records were not available at the time of this report.
20   GAO-09-3SP and GAO-12-120G.
                                                                                           20

                            Amtrak Office of Inspector General
            Governance: Improved Policies, Practices, and Training Can Enhance
                              Capital Project Management
                              Audit Report OIG-A-2014-009

report.21 Based on our prior work, we considered the average reprogramming amount
to be a best practice. To identify industry expectations for efficient manufacturing and
service processes, we researched generally accepted manufacturing and production
efforts focused on improving efficiency and eliminating wasted expenses.

We focused our review on the two departments with the highest capital project
expenditures. The two departments have different methods for overseeing and
conducting capital projects.

        To conduct our analysis of project management practices in the Engineering
         department, we selected five projects as case studies for our comparative
         analysis. To review a cross-section of the department’s capital projects, we
         selected active FY 2013 projects varying in size, amount, and performance
         responsibility. Contractors performed two of these projects, and departmental
         labor performed three. The projects ranged in value from $4.3 million to
         $149.7 million and were for interlocking replacement, concrete tie replacement,
         surfacing replacement, information technology upgrade, and bridge
         replacement. We conducted interviews with senior directors, directors, project
         managers, and construction managers. We discussed policies, procedures, and
         practices as they related to cost estimating, scheduling, and project oversight. We
         obtained financial data for budget and actual figures for each project and
         interviewed financial personnel. We reviewed the production schedules and
         analyzed the project results. Also, we discussed and analyzed the cost for project
         management oversight, and we obtained, reviewed, and discussed the Project
         Status Report for each project. We gathered and analyzed data to capture the
         department’s management process and its results as it relates to estimating,
         scheduling, and oversight. We reviewed project documentation and contractual
         agreements related to project management.

        To conduct our analysis of project management practices in the Mechanical
         department, we judgmentally selected five projects for equipment overhauls of
         the Amfleet, Superliner, and an engine locomotive. The total value of the five
         projects was $48.7 million. Department employees conducted the equipment
         overhauls. We conducted interviews with senior directors, superintendents,
         assistant superintendents, budget managers, general foremen, and foremen. We
         obtained four years of data for FY 2009 through FY 2012—such as budget and

21OIG-E-2013-020.
                                                                                     21

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009

      actual amounts, variances for labor hours and materials, and total overall costs.
      We reviewed Maintenance Analysis Program books for the five overhaul projects
      selected. We then analyzed the data from the Work Management System to look
      for efficiency trends in performance and accuracy in cost estimations. Based on
      the interviews, we developed graphs and charts to demonstrate production
      results for the department. We then reviewed and analyzed those results to show
      the production trends.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal controls

The report focused on the company’s management controls, as well as Engineering and
Mechanical departments’ management controls for project management. We reviewed
the company’s overall policies for overseeing the implementation of capital projects. We
also conducted a detailed review of the Engineering and Mechanical departments’
internal controls for project management. The results of that review are discussed in
this report.

Computer-processed data

During our review of Engineering department reprogramming actions, we obtained
data on FY 2012 projects. The data showed the project budget before reprogramming,
the amount of the reprogramming, and the project budget after the reprogramming. For
FY 2012, we also obtained capital funding by source, capital spending by department,
and capital budgets and actuals for all company projects. We did not verify this data.
However, because the data came from Amtrak’s financial management system, we
relied on the work of the company’s independent public accountant, which stated that
the company’s financial statements for FY 2012 were free of misstatement. We
determined that the data were sufficiently reliable for our objectives and conclusions.
                                                                                          22

                          Amtrak Office of Inspector General
          Governance: Improved Policies, Practices, and Training Can Enhance
                            Capital Project Management
                            Audit Report OIG-A-2014-009

During our review of Mechanical department equipment overhauls, we obtained four
years of data on costs and labor hours from the Work Management System. We did not
assess the overall reliability of the system’s data, but we did match the data to source
documentation for the five projects we reviewed in detail. We determined that there
were no inconsistencies between the system’s data and the source documents.
Therefore, the data were sufficiently reliable for our objectives and conclusions.

Prior reports

In conducting our audit, we reviewed the following Amtrak OIG Reports:

      Corporate Governance: Planned Changes Should Improve Amtrak’s Capital Planning
       Process, and Further Adoption of Sound Business Practices Will Help Optimize the Use
       of Limited Capital Funds (OIG-E-2013-020, September 27, 2013)

      American Recovery and Reinvestment Act: Amtrak Has Taken Positive Steps to
       Safeguard Funds Used for Concrete Tie Replacement Program
       (OIG-E-2013-017, September 19, 2013)

      Asset Management: Integrating Sound Business Practices into its Fleet Planning
       Process Could Save Amtrak Hundreds of Millions of Dollars on Equipment
       Procurements (OIG-E-2013-014, May 28, 2013)

      Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions
       To Improve Human Capital Management, Training, and Employee Development
       Practices (E-11-04, July 8, 2011)

      American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but
       Less than Planned (908-2010, June 22, 2011)

      Assessment of Project Risks Associated with Key Engineering Projects
       (912-2010, May 14, 2010)

      Training and Employee Development (E-09-06, October 26, 2009)

      Human Capital Management (E-09-03, May 15, 2009)
                                                                                          23

                          Amtrak Office of Inspector General
          Governance: Improved Policies, Practices, and Training Can Enhance
                            Capital Project Management
                            Audit Report OIG-A-2014-009

We also reviewed the following reports from GAO:

      Federal Courthouses: Recommended Construction Projects Should Be Evaluated under
       New Capital – Planning Process (GAO-13-263, April 11, 2013)

      GAO Schedule Assessment Guide: Best Practices for Project Schedules
       (GAO-12-120G, May 2012)

      GAO Cost Estimating and Assessment Guide: Best Practices for Developing and
       Managing Capital Program Costs (GAO-09-3SP, March 2009)
                                                                                        24

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009

                                           Appendix B


                      FY 2012 CAPITAL EXPENDITURES

The following table shows FY 2012 capital expenditures by department.


                     Reported FY 2012 Spending By Department
                                         (dollars in millions)

                                                  Amounts           Percent of Total
                  Engineering                      $465.3                    50.5%

                  Mechanical                          325.5                      35.3

                  Information                          35.0                       3.8
                  Technology
                  Emergency                            29.7                       3.2
                  Management and
                  Corporate Security
                  Transportation                       24.1                       2.6

                  Marketing and                        21.2                       2.3
                  Production
                  Management
                  Other departments*                   21.0                       2.3

                  Totals                            $921.8                   100.0%

                  * Other departments include Procurement, Chief Financial Officer,
                  and Real Estate among others
                   Source: OIG analysis of Finance department data
                                                                     25

                Amtrak Office of Inspector General
Governance: Improved Policies, Practices, and Training Can Enhance
                  Capital Project Management
                  Audit Report OIG-A-2014-009

                          Appendix C


   COMMENTS FROM AMTRAK’S PRESIDENT AND
         CHIEF EXECUTIVE OFFICER
                                                                     26

                Amtrak Office of Inspector General
Governance: Improved Policies, Practices, and Training Can Enhance
                  Capital Project Management
                  Audit Report OIG-A-2014-009
                                                                           27

                      Amtrak Office of Inspector General
      Governance: Improved Policies, Practices, and Training Can Enhance
                        Capital Project Management
                        Audit Report OIG-A-2014-009

                                 Appendix D


                              ABBREVIATIONS

FY              Fiscal Year
GAO             Government Accountability Office
OIG             Office of Inspector General
                                                                              28

                         Amtrak Office of Inspector General
         Governance: Improved Policies, Practices, and Training Can Enhance
                           Capital Project Management
                           Audit Report OIG-A-2014-009

                                    Appendix E


                                 TEAM MEMBERS

David R. Warren, Assistant Inspector General, Audits

Ed Stulginsky, Deputy Assistant Inspector General, Audits

Matthew Simber, Senior Director, Audits

Todd Kowalski, Audit Manager

Walter Beckman, Senior Auditor

Thelca Constantin, Senior Auditor
             OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission      The Amtrak OIG’s mission is to provide independent,
                          objective oversight of Amtrak’s programs and operations
                          through audits, inspections, evaluations, and investigations
                          focused on recommending improvements to Amtrak’s
                          economy, efficiency, and effectiveness; preventing and
                          detecting fraud, waste, and abuse; and providing Congress,
                          Amtrak management, and Amtrak’s Board of Directors
                          with timely information about problems and deficiencies
                          relating to Amtrak’s programs and operations.


Obtaining Copies of OIG   Available at our website: www.amtrakoig.gov.
Reports and Testimony



To Report Fraud, Waste,   Report suspicious or illegal activities to the OIG Hotline
or Abuse                  (you can remain anonymous):

                          Web:      www.amtrakoig.gov/hotline
                          Phone:    800-468-5469

Point of Contact          David R. Warren
                          Assistant Inspector General, Audits

                          Mail:    Amtrak OIG
                                   10 G Street NE, 3W-300
                                   Washington D.C., 20002
                          Phone:   202-906-4600
                          Email:   David.Warren@amtrakoig.gov
